TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2007



                                       September 4, 2007

                              Reference Number: 2007-20-186




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             Background

The Federal Information Security Management Act (FISMA)1 requires each Federal
Government agency to report annually to the Office of Management and Budget on the
effectiveness of its security programs. In addition, the FISMA requires that each agency shall
have performed an annual independent evaluation of the information security program and
practices of that agency. In compliance with the FISMA requirements, the Treasury Inspector
General for Tax Administration performs the annual independent evaluation of the security
program and practices of the Internal Revenue Service.
The Office of Management and Budget provides information security performance measures by
which each agency is evaluated for the FISMA review. The Office of Management and Budget
uses the information from the agencies and independent evaluations to help assess
agency-specific and Federal Government-wide security performance, develop its annual security
report to Congress, assist in improving and maintaining adequate agency security performance,
and assist in the development of the E-Government Scorecard under the President’s Management
Agenda.
Attached is the Treasury Inspector General for Tax Administration Fiscal Year 2007 FISMA
report. The report was forwarded to the Treasury Inspector General for consolidation into a
report issued to the Department of the Treasury’s Chief Information Officer.




1
    The FISMA is part of the E-Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002).
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 4, 2007


 MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE TREASURY INSPECTOR GENERAL



 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit
 SUBJECT:                     Treasury Inspector General for Tax Administration –
                              Federal Information Security Management Act Report for
                              Fiscal Year 2007

 We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
 Information Security Management Act (FISMA)1 report for Fiscal Year 2007. The FISMA
 requires the Office of Inspector General to perform an annual independent evaluation of
 information security policies, procedures, and practices and compliance with FISMA
 requirements. As such, this report presents the results of our independent evaluation of the
 Internal Revenue Service’s (IRS) information technology security program.
 We based our evaluation on the Office of Management and Budget (OMB) FISMA reporting
 guidelines for 2007 and the answers to the questionnaire published with the OMB guidelines
 (see Attachment I). During the 2007 evaluation period2, we also conducted 12 audits to evaluate
 the adequacy of information security in the IRS (see Attachment II). We considered the results
 of those audits when making our assessment.
 The IRS has made steady progress in complying with FISMA requirements since enactment of
 the FISMA in 2002, and it continues to place a high priority on efforts to improve its security
 program. During 2007, the IRS Modernization and Information Technology Services
 organization Cybersecurity office, the Security Program Management Office representatives
 from each IRS operating unit, and the Modernization and Information Technology Services
 organization Information Technology Security Council have partnered to improve the IRS’

 1
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
 2
  The FISMA reporting period for the Department of the Treasury is July 1, 2006, through June 30, 2007. Hereafter,
 all references to 2007 refer to the FISMA evaluation period.
compliance with the FISMA. Efforts continued this year to develop an enterprise-wide approach
to help employees understand their responsibilities for securing IRS systems and data. A
working group3, with participation from all of the IRS business units, continued its weekly
meetings to plan and refine processes for FISMA compliance. The IRS also continued to work
closely in seeking guidance and concurrence on FISMA issues with the Treasury Inspector
General for Tax Administration and the Department of the Treasury Acting Chief Information
Officer to improve compliance with the National Institute of Standards and Technology (NIST)4
and FISMA requirements.
To complete our review, we evaluated a representative sample of 20 IRS information systems to:
        •   Determine whether the systems are certified and accredited and to evaluate the quality
            of the certification and accreditation process, including annual testing of security
            controls.
        •   Determine whether security controls had been tested within the last year and to
            evaluate the quality of the annual testing.
        •   Evaluate the quality of the Plan of Action and Milestones (POA&M) process.
        •   Determine whether Information Technology Contingency Plans had been adequately
            tested within the last year.
We conducted separate tests to evaluate processes for configuration management, incident
reporting, awareness training, and ensuring the privacy of sensitive information.
Our evaluation of the IRS’ 2007 performance against specific OMB security measures and our
audit work performed during the 2007 evaluation period show that the IRS still needs to do more
to adequately secure its systems and data. The most significant areas of concern are annual
testing of security controls and contingency plans, implementation of configuration management
standards, and privacy requirements for protecting personally identifiable information.
Attachment I provides our responses to the OMB FISMA questions for the Inspector General.
We are confident the IRS’ systems inventory is substantially complete, the POA&M process is
adequate to ensure the remediation of security weaknesses, and policies and procedures are
followed for reporting computer security incidents. Provided in this document are security
performance improvements as well as areas that require additional attention.
Certification and Accreditation The quality of the certification and accreditation process is
satisfactory; however, not all systems are currently certified and accredited.
The OMB guidelines for minimum security controls in Federal Government information systems
require that all systems be certified and accredited every 3 years or when major system changes
occur. The NIST provides guidelines for conducting the certifications and accreditations.



3
 IRS Security Program Management Office Council.
4
 The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements for providing adequate information security for all Federal Government agency operations
and assets.
                                                                                                                 2
In 2006, we reported that the IRS had implemented a satisfactory certification and accreditation
process. Because of budget constraints, the IRS planned to implement its process over 3 years.
For 2007, the IRS continued to apply this process and is on track to meet its goal by the end of
the 2008 FISMA reporting period.
We evaluated the quality of the certification and accreditation process for all 5 of the systems in
our sample of 20 that were certified and accredited during the 2007 FISMA reporting period.
We determined that all five systems were properly certified, and all but one were accredited in
accordance with NIST guidelines.
The certification documentation for each system included a:
       •   System Security Plan that documented an appropriate set of security controls.
       •   Security Test and Evaluation of all applicable controls using appropriate assessment
           procedures to determine whether the controls were implemented and operating as
           intended.
       •   Security Assessment Report to inform the system owner of the remaining security
           weaknesses and risks.
       •   POA&M for tracking the identified security control weaknesses.
However, the NIST Guidelines for the Security Certification and Accreditation of Federal
Information Systems (Special Publication 800-37) state that a critical aspect of the security
certification and accreditation process is the post-accreditation period involving the oversight
and monitoring of the information system’s security controls. OMB guidelines state that
continuous monitoring of security controls is required as part of the certification and
accreditation process to ensure controls remain effective over time. The IRS did not make
sufficient progress this year in properly implementing annual testing of security controls as part
of its continuous monitoring efforts. Accordingly, we could rate the certification and
accreditation process no higher than satisfactory.
The OMB also requires the Inspector General to report on the number of systems certified and
accredited in our sample. We are reporting that 15 (75 percent) of the 20 systems in our sample
were certified and accredited. One system was certified in May 2007 but was not accredited by
June 30, 2007, the end of the FISMA reporting period. The other four systems were certified
prior to 2006 before the IRS changed its process. These systems were certified and accredited
based solely on their underlying general support systems, which does not meet the OMB
requirements.
In prior years, when making our assessment of the number of systems certified and accredited,
we considered any system with an authorization to operate to be certified and accredited
regardless of the quality of the process. This year, to be consistent with the Department of the
Treasury Inspector General methodology, we considered the number of systems with satisfactory
certifications and accreditations in making our assessment. Because we changed our
methodology in addressing this issue, the percentage of systems with certifications and
accreditations appears to have dropped from 100 percent in the 2006 FISMA reporting period,
when in fact the number of satisfactory certifications and accreditations has steadily increased
since 2006.
                                                                                                      3
Annual Testing of Security Controls As previously stated, the IRS did not make sufficient
progress in implementing annual testing of security controls. The NIST requires system owners
to select and test an appropriate and applicable set of security controls every year throughout the
system life cycle but not necessarily to the same extent required for a certification. NIST and
Department of the Treasury guidelines state that, for selecting a subset of controls for annual
testing, the first priority should be controls for which a weakness was corrected and closed off of
a POA&M. The second priority should be the selection of highly volatile controls, the
effectiveness of which is most likely to change over time.
The IRS met annual testing requirements on only 5 (25 percent) of the 20 systems we reviewed.
We consider these systems as having met the requirement because they were tested during the
certification process. For those systems that were not certified during the year, annual testing
was conducted; however, the testing was not in compliance with NIST guidelines.
For the 15 systems that did not meet the annual testing requirements, the following weaknesses
in the annual testing of controls demonstrate a lack of understanding by the system owners of the
purpose of the requirements:
       •   The system owners requested the assistance of the Cybersecurity office to help them
           meet their annual testing requirements. In response, the Cybersecurity office
           provided a standard list of controls to test for each system, based on the risk
           categorization of the system. Specifically, 13 high-volatility controls were
           preselected and required to be reviewed for moderate-impact systems, and 8 high-
           volatility controls were selected for the review of low-impact systems. This process
           is not consistent with NIST guidelines, and Department of the Treasury guidance that
           states system owners must select an appropriate set of controls to be tested for their
           systems. Many of the controls required by the Cybersecurity office were not
           applicable to the 15 systems; nonetheless, the system owners included them in their
           continuous monitoring plans and then stated in the testing documentation that they
           were not applicable. Controls that are not applicable to the system do not require
           testing and should not be included in the continuous monitoring plans.
       •   The requirement to include closed POA&M weaknesses in the continuous monitoring
           plan was not appropriately addressed by system owners. The purpose of this
           requirement is to verify whether the weaknesses were adequately addressed before
           being closed off the POA&M as completed. The continuous monitoring plans for 3
           of the 15 systems included the selection of closed POA&M weaknesses for testing.
           However, system owners for two of the three systems included closed POA&M
           weaknesses that were not applicable to the system and required no testing. The
           continuous monitoring plan for one of the three systems included security
           certification and security accreditation, which had been closed off the system
           POA&M; however, these controls do not require testing to verify whether they are
           operating as intended and should not have been included in the continuous monitoring
           plan.
       •   The continuous monitoring plans for 5 of the 15 systems included controls selected
           by the system owners that were in addition to those required by the Cybersecurity
           office and any closed POA&M control weaknesses. However, some of the controls
                                                                                                   4
             selected were not appropriate for inclusion in a continuous monitoring plan. For
             example, organizational common controls were selected for one system. Common
             controls are not the responsibility of the system owner; therefore, these should not be
             included in a continuous monitoring plan. Other controls selected were known
             security weaknesses that had been identified when the system was certified in May
             2006.
         •   Controls that were appropriately included in the continuous monitoring plans were
             not always sufficiently tested to support the “passing” test results or to identify
             potential security control weaknesses. For example, we identified controls with
             passing results; however, the assessments of the controls were based on the controls
             being included in the Internal Revenue Manual or in the System Security Plan rather
             than testing of the controls to determine whether they were operating as intended.
While system owners have documented that all 15 systems were tested and evaluated this year,
the selection of the controls to be tested and the quality of the testing were insufficient to (1)
apprise the system owners of the status of security controls in their systems and (2) identify
controls that may not be operating as intended to protect the systems and data.
Information Technology Contingency Plan Testing The IRS made progress in 2007 in
meeting the Federal Government requirement for annual testing of contingency plans. However,
additional efforts are needed. The OMB requires that all information technology contingency
plans be tested at least annually. The NIST requires that key aspects of contingency plans be
tested for systems with moderate- and high-impact levels for the availability control objective.
Guidance in the IRS FISMA Handbook states that tabletop5 testing can be done for low-impact
systems. Department of the Treasury guidance states that tabletop testing alone is not sufficient
for testing the contingency plans of moderate- and high-impact systems; functional6 testing is
also required. The guidance states that testing of the backup process is an example of a
functional test.
Based on the above guidelines and requirements, we determined contingency plans for
14 (70 percent) of the 20 IRS systems we reviewed were properly tested. The contingency plan
for one of the other six systems was not tested at all. Contingency plans for two systems were
evaluated inadequately because they were tested using only a tabletop exercise. In addition,
contingency plans for three systems were improperly tested because the functional testing of the
backup process was incomplete. Department of the Treasury guidance describes backup process
testing as a multistep test beginning with confirming that backup tapes are made. To fully test
the process, bureaus must also verify whether the backup tape data are valid and retrievable. The
IRS performed only the first step of the backup test process for these three systems.
Security Configuration Policies The primary security goal of configuration management is
ensuring changes to the system do not unintentionally or unknowingly diminish security. The
OMB requires agencies to have configuration guides in place to ensure the consistent

5
  Participants in tabletop exercises walk through the contingency plan procedures to ensure the documentation
reflects the ability to adequately perform the tasks outlined without any recovery operations actually occurring. A
tabletop exercise is also known as a classroom exercise.
6
  A functional exercise is more extensive than a tabletop exercise and includes the simulation of an emergency.
                                                                                                                      5
implementation of software across the agency. The IRS has an agency-wide security
configuration policy but needs to do more to ensure information systems apply common security
configurations established by the NIST.
The IRS provided test results that demonstrated an overall rate of 71 percent to 80 percent for
implementing security configurations on all of the types of software it uses for which security
configurations are provided by the NIST. For the individual types of software, the
implementation rates range from a high of 99 percent to a low of 12 percent.
In 2007, we evaluated configuration management controls for database software used by the
IRS7. We found that standard database security configurations were not adequately implemented
because the configurations were poorly communicated, security roles and responsibilities were
not assigned or carried out, and tests to detect noncompliance with standard configurations were
inadequate. Improperly configured database software could make the IRS network vulnerable to
disruptions of service and theft of sensitive information by hackers, employees, and contractors.
Awareness Training The IRS provided security awareness training to over 98 percent of its
employees. We also found that awareness training had been provided to more than 92 percent of
its contractor staff, a significant improvement over last year when only 43 percent of contractor
staff was trained. Awareness training is critical to ensuring employees understand how to
properly use and protect the information technology resources entrusted to them. However, the
IRS needs to improve employees’ awareness of techniques hackers could use to persuade them to
reveal their user names and passwords.
During the evaluation period, we conducted an audit to evaluate the susceptibility of IRS
employees to social engineering8 attempts that could be used by hackers to gain access to IRS
systems.9 We found the IRS needs to enhance its security awareness program to increase
employees’ awareness of social engineering techniques and the importance of protecting their
usernames and passwords. In a March 2007 audit test, posing as help desk employees, we were
able to convince 60 percent of 102 employees tested to provide us with their usernames and to
temporarily change their passwords to ones we suggested.
Privacy Requirements During the past year, the IRS continued to take actions to conduct
evaluations for all systems and applications that collect personal information. We determined a
Privacy Impact Assessment10 was prepared for all systems in our representative sample of
20 systems. The Office of Privacy has standard operating procedures and has submitted revised
guidelines for processing Privacy Impact Assessments.



7
  See Attachment II, Report 11.
8
  A method used to circumvent existing computer security controls by exploiting the human element to obtain
sensitive information that can be used to access computer resources and data.
9
  See Attachment II, Report 9.
10
   This is an analysis of how personal information is collected, stored, shared, and managed in a Federal Government
system. Specifically, a privacy impact assessment (1) ensures handling conforms to applicable legal, regulatory, and
policy requirements on privacy; (2) determines the risks and effect of collecting, maintaining, and disseminating
personal information; and (3) examines and evaluates protection and alternative processes for handling personal data
to reduce potential privacy risks.
                                                                                                                  6
However, in 2007, we assessed the IRS’ privacy requirements as poor due to the lack of
compliance with security policies and procedures. We issued a report in 2007 summarizing the
results of reviews we conducted from 2003 to 2007 that address the security of personally
identifiable information11. The report concludes that persistent computer security weaknesses
continue to jeopardize the security of personally identifiable information, primarily because
employees and managers are not held accountable for implementing and complying with
applicable IRS policies and procedures.
Specifically, we reported that:
           •   Employees did not sufficiently safeguard laptop computers and did not encrypt data
               on the computers.
           •   Employees were susceptible to social engineering techniques that hackers could use
               to gain access to their systems.
           •   Employees continued to ignore IRS policies on the appropriate use of email, which
               increases potential security vulnerabilities.
           •   Employees with key security responsibilities continued to ignore standard security
               configurations for their own convenience and were not held accountable for
               complying with procedures.
           •   Managers did not consistently review audit trails to identify unauthorized accesses to
               taxpayer accounts.
           •   Managers provided employees access to systems and data they do not need for their
               job responsibilities. In many cases, managers were not aware of the access
               capabilities of their employees.
           •   The IRS and its contractors were not integrating security controls into modernized
               computer systems.




11
     See Attachment II, Report 10.


                                                                                                        7
                                                                                                                                                   Attachment I

                       Details of the TIGTA Federal Information Security Management

                                                         Section C - Inspector General: Questions 1 and 2
Agency Name: Department of the Treasury - Internal Revenue Service                                        Submission date: August 31, 2007
                                                                     Question 1: FISMA Systems Inventory


1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of
an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact
level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an
agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self
reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and
service providers have a shared responsibility for FISMA compliance.


                                   Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of
systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance
with policy.

                                                                  Question 1                                                               Question 2
                                                 a.                   b.                   c.                    a.                  b.                        c.
                                           Agency Systems         Contractor        Total Number of          Number of          Number of         Number of systems for which
                                                                   Systems             Systems            systems certified systems for which contingency plans have been tested in
                                                                                     (Agency and           and accredited    security controls       accordance with policy
                                                                                      Contractor                             have been tested
                                                                                       systems)                              and reviewed in
                                                                                                                               the past year


                                                                                               Total
                      FIPS 199 System                 Number          Number   Total                   Total        Percent     Total   Percent     Total
Bureau Name                               Number              Number                          Number                                                          Percent of Total
                      Impact Level                   Reviewed        Reviewed Number                  Number        of Total   Number   of Total   Number
                                                                                             Reviewed
IRS                   High                       4          0        0          0        4            0

                      Moderate                179         15         6          3      185         18          15      83%          5      28%          12                       67%
                      Low                       71          2        0          0       71            2         0        0%         0        0%          2                       100%

                      Not Categorized            0          0        0          0        0            0

                      Sub-total               254         17         6          3      260         20          15      75%          5      25%          14                       70%




Comments: Question 2.a.- In prior years when making our assessment of the number of systems certified and accredited, we considered any system with an authorization to
operate to be certified and accredited regardless of the quality of the process. This year, to be consistent with the Department of the Treasury Inspector General methodology, we
considered the number of systems with satisfactory certifications and accreditations in making our assessment. Because we changed our methodology in addressing this issue, the
percentage of systems with certifications and accreditations appears to have dropped from 100 percent for the FISMA 2006 reporting cylce, when in fact the number of satisfactory
certifications and accreditations has steadily increased since 2006. Five systems are not considered to be certified and accredited. Four of the five systems reviewed were not
certified following NIST guidelines and were not counted as certified and accredited. The IRS is on track to have these systems certified and accredited for the next FISMA
reporting cycle. One of the five systems did not have a current accreditation.




Question 2.b.- The IRS met annual testing requirements on only 5 (25 percent) of the 20 systems we reviewed. We consider these systems as having met the requirement
because they were tested during the certification process. For those systems that were not certified during the year, annual testing was conducted; however, the testing was not in
compliance with NIST guidelines. See Question 5, Quality of the Certification and Accreditation process for further details. Question 2.c.-14 of 20 contingency plans were tested in
accordance with NIST and OMB guidelines. Six contingency plans were not properly tested. All 6 were moderate impact for the availability control objective. One of the six was no
tested at all, 2 of the 6 were tested using a tabletop exercise only, and 3 of the 6 included an insufficient functional exercise to test the backup process.
                                               Section C - Inspector General: Question 3
Agency Name: Internal Revenue Service
                 Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.
                 The agency performs oversight and evaluation to ensure information systems used or operated by a
                 contractor of the agency or other organization on behalf of the agency meet the requirements of
                 FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

                 Agencies are responsible for ensuring the security of information systems used by a contractor of their
                 agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
                 the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider,
                                                                                                                                Almost Always (96-100% of
                 may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                                                                                                the time)
                 Response Categories:
                  - Rarely- for example, approximately 0-50% of the time
                  - Sometimes- for example, approximately 51-70% of the time
                  - Frequently- for example, approximately 71-80% of the time
                  - Mostly- for example, approximately 81-95% of the time
                  - Almost Always- for example, approximately 96-100% of the time



                 The agency has developed a complete inventory of major information systems (including major
      3.b.       national security systems) operated by or under the control of such agency, including an
                 identification of the interfaces between each such system and all other systems or networks,
                 including those not operated by or under the control of the agency.
                                                                                                                              Inventory is 96-100%
                 Response Categories:
                                                                                                                              complete
                  - The inventory is approximately 0-50% complete
                  - The inventory is approximately 51-70% complete
                  - The inventory is approximately 71-80% complete
                  - The inventory is approximately 81-95% complete
                  - The inventory is approximately 96-100% complete

      3.c.       The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

                 The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                               Yes
                 contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.       The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

                 If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
       3.f.      Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if
                 known), and indicate if the system is an agency or contractor system.

                                                                                                                                 Agency or
                                                                                                  Exhibit 53 Unique Project
                           Component/Bureau                          System Name                                                 Contractor
                                                                                                       Identifier (UPI)
                                                                                                                                  system?




                 Number of known systems missing
                 from inventory:
                                                   Section C - Inspector General: Questions 4 and 5
Agency Name: Internal Revenue Service
                                      Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate the
degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include
comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                  The POA&M is an agency-wide process, incorporating all known IT security weaknesses
       4.a.       associated with information systems used or operated by the agency or by a contractor of the    Almost Always (96-100% of the time)
                  agency or other organization on behalf of the agency.
                  When an IT security weakness is identified, program officials (including CIOs, if they own or
      4.b.                                                                                                        Almost Always (96-100% of the time)
                  operate a system) develop, implement, and manage POA&Ms for their system(s).
                  Program officials and contractors report their progress on security weakness remediation to the
       4.c.                                                                                                       Almost Always (96-100% of the time)
                  CIO on a regular basis (at least quarterly).
                  Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
      4.d.                                                                                                        Mostly (81-95% of the time)
                  basis.

       4.e.       IG findings are incorporated into the POA&M process.                                            Almost Always (96-100% of the time)

                  POA&M process prioritizes IT security weaknesses to help ensure significant IT security
       4.f.                                                                                                       Almost Always (96-100% of the time)
                  weaknesses are addressed in a timely manner and receive appropriate resources.
                  POA&M process comments:

                                           Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and standards.
Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and
Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk assessments
and security plans.

                  The IG rates the overall quality of the Agency's certification and accreditation process as:

                  Response Categories:
                   - Excellent
       5.a.                                                                                                       Satisfactory
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing

                  The IG's quality rating included or considered the following aspects of the C&A process: Security plan                        X
                  (check all that apply)
                                                                                                                 System impact level            X
                                                                                                                 System test and evaluation     X
                                                                                                                 Security control testing       X
      5.b.
                                                                                                                 Incident handling
                                                                                                                 Security awareness training
                                                                                                                 Configurations/patching
                                                                                                                 Other:
                  C&A process comments: We reviewed the certification and accreditation documentation for five systems certified and
                  accredited during the 2007 FISMA cycle. The certifications and accreditations were in compliance with NIST guidelines. We
                  also reviewed the annual security controls testing as part of continuous monitoring that was conducted during the 2007
                  FISMA cycle for 15 systems. Because continuous monitoring is part of the certification and accreditation process, we
                  included the quality of the annual testing into the overall evaluation of the certification and accreditation process. The annual
                  testing was not in compliance with NIST guidelines. The Cybersecurity office provided system owners with a standard list of
                  controls to test for each system. This process is not consistent with NIST guidelines, or Department of the Treasury guidance
                  that state system owners must select an appropriate set of controls to be tested for their systems. Many of the controls
                  required by the Cybersecurity office were not applicable to the 15 systems. As a result, the Continuous Monitoring Plans for
                  all 15 systems included controls that were not applicable to the systems. Continuous Monitoring Plans for 5 of the 15 systems
                                                                      Section C - Inspector General: Questions 6 and 7
Agency Name: Internal Revenue Service
                                         Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process
        Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA) process, as discussed in Section D II.4 (SAOP reporting
 6.a.   template), including adherence to existing policy, guidance, and standards.

        Response Categories:
         - Response Categories:                                                                                                                                                                              Satisfactory
         - Excellent
         - Good
         - Satisfactory
         - Poor
         - Failing
        Comments: All 20 of the sample systems reviewed have a PIA. All were timely processed. The Office of Privacy (OP) has updated their standard operating procedures for processing
        PIA's, has submitted revised Internal Revenue Management guidelines for processing PIA's, and has updated and distributed literature on the PIA process.


        Provide a qualitative assessment of the agency's progress to date in implementing the provisions of M-06-15, "Safeguarding Personally
 6.b.   Identifiable Information" since the most recent self-review, including the agency's policies and processes, and the administrative, technical, and
        physical means used to control and protect personally identifiable information (PII).

        Response Categories:                                                                                                                                                                                    Poor
         - Response Categories:
         - Excellent
         - Good
         - Satisfactory
         - Poor
        Comments: During the past year, the IRS continued to take actions to conduct evaluations for all systems and applications that collect personal information. We determined a Privacy Impact Assessment was
        prepared for all systems in our representative sample of 20 systems. The Office of Privacy has standard operating procedures and has submitted revised guidelines for processing Privacy Impact Assessments.
        However, in 2007, we assessed the IRS’ privacy requirements as poor due to the lack of compliance with security policies and procedures. We issued a report in 2007 summarizing the results of reviews we have
        conducted from 2003 to 2007 that address the security of personally identifiable information. The report concludes that persistent computer security weaknesses continue to jeopardize the security of personally
        identifiable information, primarily because employees and managers are not held accountable for implementing and complying with applicable IRS policies and procedures. Specifically:
        • Employees did not sufficiently safeguard laptop computers and did not encrypt data on the computers.
        • Employees were susceptible to social engineering techniques that hackers could use to gain access to their systems.
        • Employees continue to ignore IRS policies on the appropriate use of email which increases potential security vulnerabilities.
        • Employees with key security responsibilities continue to ignore standard security configurations for their own convenience and were not held accountable for complying with procedures.
        • Managers do not consistently review audit trails to identify unauthorized access to taxpayer accounts.
        • Managers provide employees access to systems and data they do not need for their job responsibilities. In many cases, managers were not aware of the access capabilities of their employees.
        • The IRS and its contractors were not integrating security controls into modernized computer systems.




                                                                                   Question 7: Configuration Management
        Is there an agency-wide security configuration policy? Yes or No.                                                                                                                                        Yes
 7.a.
        Comments:
        Approximate the extent to which applicable information systems apply common security configurations established by NIST.
 7.b.
        Response categories:
         - Rarely- for example, approximately 0-50% of the time                                                                                                                                           Frequently (71-
         - Sometimes- for example, approximately 51-70% of the time                                                                                                                                       80% of the time)
         - Frequently- for example, approximately 71-80% of the time
         - Mostly- for example, approximately 81-95% of the time
         - Almost Always- for example, approximately 96-100% of the time
                                                                 Section C - Inspector General: Questions 8, 9, 10 and 11
Agency Name: Internal Revenue Service
                                                                                         Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement. If
appropriate or necessary, include comments in the area provided below.

8.a. The agency follows documented policies and procedures for identifying and reporting incidents internally. Yes or No.                                                                                        Yes
8.b. The agency follows documented policies and procedures for external reporting to US-CERT. Yes or No. (http://www.us-cert.gov)                                                                                Yes
8.c. The agency follows documented policies and procedures for reporting to law enforcement. Yes or No.                                                                                                          Yes
        Comments:
                                                                                  Question 9: Security Awareness Training

Has the agency ensured security awareness training of all employees, including contractors and those employees with significant IT security responsibilities?

Response Categories:
                                                                                                                                                                                                          Almost Always
 - Rarely- or approximately 0-50% of employees
                                                                                                                                                                                                          (96-100% of
 - Sometimes- or approximately 51-70% of employees                                                                                                                                                        employees)
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees

                                                                                    Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training, ethics training, or any other agency wide
                                                                                                                                                                                                                 Yes
training? Yes or No.
                                                                             Question 11: E-Authentication Risk Assessments

The agency has completed system e-authentication risk assessments. Yes or No.                                                                                                                                    Yes
                                                                             Attachment II

  Treasury Inspector General for Tax Administration
   Information Technology Security Reports Issued
          During the 2007 Evaluation Period

1. Business Cases for Information Technology Projects Remain Inaccurate
   (Reference Number 2007-20-024, dated January 25, 2007).
2. The Internal Revenue Service Adequately Protected Sensitive Data and Restored Computer
   Operations After the Flooding of Its Headquarters Building (Reference
   Number 2007-20-023, dated January 26, 2007).
3. The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop
   Computers and Other Portable Electronic Media Devices (Reference Number 2007-20-048,
   dated March 23, 2007).
4. The Background Investigation Process Needs Improvements to Ensure Investigations Are
   Completed Timely and Efficiently (Reference Number 2007-20-059, dated March 28, 2007).
5. Sensitive Data Remain at Risk From the Use of Unauthorized Wireless Technology
   (Reference Number 2007-20-060, dated March 28, 2007).
6. Sufficient Emphasis Was Not Placed on Resolving Security Vulnerabilities When Restoring
   the Electronic Fraud Detection System (Reference Number 2007-20-108,
   dated June 14, 2007).
7. Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12
   Requirements (Reference Number 2007-20-110, dated June 20, 2007).
8. Network Devices Are Running Unnecessary Communication Services Which Could Expose
   Sensitive Data to Unauthorized Individuals (Reference Number 2007-20-104,
   dated July 9, 2007).
9. Employees Continue to Be Susceptible to Social Engineering Attempts That Could Be Used
   by Hackers (Reference Number 2007-20-107, dated July 20, 2007).
10. Efforts Have Been Made, but Manager and Employee Noncompliance With Security Policies
    and Procedures Puts Personally Identifiable Information at Risk (Reference
    Number 2007-20-117, dated August 13, 2007).
11. Standard Database Security Configurations Are Adequate, Although Much Work Is Needed
    to Ensure Proper Implementation (Reference Number 2007-20-129, dated August 22, 2007).
12. Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information
    (Reference Number 2007-20-134, dated August 31, 2007).




                                                                                          Page 18
